Department of Homeland Security
   Ofﬁce of Inspector General


         Investigation Concerning TSA's 

      Compromise of Covert Testing Methods





OIG-09-43                              March 2009
                                                              Office of Inspector General

                                                              U.S. Department of Homeland Security
                                                              Washington, DC 20528




                                       March 20, 2009


                                          Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report summarizes the key elements of the OIG Report of Investigation regarding
the Transportation Security Administration’s role in the compromise of OIG's covert
testing methods. It is based on interviews with employees and officials of relevant
agencies and institutions, and reviews of email files and applicable documents.

We trust this report will result in more effective coordination to ensure that covert testing
is not compromised in the future. We express our appreciation to all of those who
contributed to the preparation of this report.




                                       Richard L. Skinner 

                                       Inspector General 

Table of Contents/Abbreviations
Executive Summary .............................................................................................................1


Background ..........................................................................................................................2


Results of Review ................................................................................................................2


     TSA Compromised OIG's Covert Testing Methods ......................................................2 


     TSA Officials Made No Effort to Report the Compromise...........................................3 


     Only Airport Police and TSA Federal Security Directors Should Be Provided 

     Advanced Notification of Covert Testing......................................................................4 


Management Comments and OIG Analysis ........................................................................5 



Appendices
     Appendix A:           Purpose, Scope, and Methodology.......................................................10 

     Appendix B:           Management Comments to the Draft Report .......................................11 

     Appendix C:           April 28, 2006, NetHub Email.............................................................15 

     Appendix D:           Major Contributors to this Report........................................................16 

     Appendix E:           Report Distribution ..............................................................................17 


Abbreviations
     CHS                   Charleston International Airport                                

     DHS                   Department of Homeland Security 

     DOT                   Department of Transportation 

     FAA                   Federal Aviation Administration 

     FSD                   Federal Security Director 

     IED                   Improvised Explosive Device 

     JAX                   Jacksonville International Airport                                  

     OIG                   Office of Inspector General 

     OSO                   Office of Security Operations 

     TSA                   Transportation Security Administration                                    

OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                  In response to a request from U.S. Representative Bennie
                  Thompson, Chairman of the House Committee on Homeland
                  Security, we investigated the events surrounding a Transportation
                  Security Administration (TSA) email entitled “Notice of Possible
                  Security Test.” The objective of the investigation was to
                  determine whether the email transmitted by the Assistant
                  Administrator of TSA’s Office of Security Operations
                  compromised any covert testing by another government entity.

                  Our review confirmed that TSA officials compromised our covert
                  testing methods and made no effort to report the compromise to
                  OIG. TSA’s disclosure of covert testing procedures was
                  inappropriate and thus potentially undermined the integrity of our
                  ongoing covert testing. We did not examine whether the email
                  affected any other agency's covert testing because we determined
                  that the email concerned only OIG's covert testing methods.

                  We are not making any recommendations. However, to improve
                  coordination and ensure that covert testing is not compromised in
                  future operations, we made several recommendations in our
                  inspections report, Transportation Security Administration’s
                  Management of Aviation Security Activities at Jackson-Evers
                  International and Other Selected Airports – Sensitive Security
                  Information (OIG-08-90).




           Investigation Concerning TSA’s Compromise of Covert Testing Methods

                                         Page 1
Background
          In November 2007, we initiated an investigation into the circumstances
          surrounding an email, purportedly sent by the Assistant Administrator of
          TSA’s Office of Security Operations (OSO) on April 28, 2006, which may
          have compromised covert government testing of TSA airport screening
          checkpoints in 2006. A copy of the April 28, 2006, email is in Appendix
          C.

          Our Office of Audits team conducted covert security testing at the
          Jacksonville International Airport (JAX), in Jacksonville, FL on April 27
          and 28, 2006. JAX was the third airport test location in our initiative to
          test 14 airports nationwide during April 24 through July 14, 2006. The
          first airports tested were the Charleston International Airport (CHS) in
          Charleston, SC on April 24, 2006, and the Savannah International Airport
          in Savannah, GA on April 26, 2006. The covert testing we performed in
          2006 tested Airport Access Control Systems, which are primarily under
          the control of entities within the airline industry, such as commercial
          airline carriers and airport authorities, not TSA.


Results of Review
     TSA Compromised OIG's Covert Testing Methods
          We reviewed the 2006 archived email files of multiple TSA employees
          associated with the release and review of the April 28, 2006, email and
          determined that the April 28, 2006 email provided key details about our
          covert airport security testing program, including our test methodology
          and the physical description of one of our undercover testers. We
          determined that airline security representatives created the email and
          forwarded it to TSA officials, who then broadcast the message to
          approximately 388 users of the TSA NetHub email system. NetHub is a
          division within TSA’s OSO that serves as a central communications
          channel between TSA headquarters and TSA field operations at more than
          400 airports. NetHub sends and receives communications by email,
          telephone, and fax on operational and administrative matters, such as
          distributing new screening procedures and security directives.

          We interviewed the former Acting Assistant General Manager of NetHub,
          who stated that on April 28, 2006, he received an email from the Federal
          Security Director in Minneapolis-St. Paul, MN titled “TEST WARNING,”
          which contained notices between airport directors describing tests of
          airport security procedures. The NetHub Acting Assistant General
          Manager stated that he interpreted the messages as identifying possible

          Investigation Concerning TSA’s Compromise of Covert Testing Methods

                                        Page 2
     unauthorized testing by nongovernment entities. The NetHub Acting
     Assistant General Manager said that he immediately brought the email to
     the Special Assistant for the Assistant Administrator of TSA’s OSO and
     requested approval to forward the information to the field.

     We determined that the message was renamed “NOTICE OF POSSIBLE
     SECURITY TEST” and sent from TSA’s NetHub communication system
     on April 28, 2006, at 2:51 p.m. The email is as follows.

            “This information is provided for your situational
            awareness. Several airport authorities and airport police
            departments have recently received informal notice of
            possible DOT/FAA [Department of Transportation/Federal
            Aviation Administration] security testing at airports around
            the nation. Here is the text of one such notification:

            Several airports have reported that the DOT is testing
            airports throughout the country. Two individuals have
            been identified as FAA or DOT at the airport in JAX this
            morning. They have a stack of fake ID’s, they try to
            penetrate security, place IED’s [Improvised Explosive
            Device] on aircraft and test gate staff. These individuals
            were in CHS earlier this week and using a date altered
            boarding pass managed to get through the security
            checkpoint. Alert your security line vendors to be aware of
            subtle alterations to date info. They should also pay very
            close attention to the photo id’s being presented. They will
            print a boarding pass from a flight, change the date, get
            through security (if not noticed) and try to board a flight
            and place a bag in the overhead. There is a couple, and the
            woman has an ID with an oriental woman’s picture, even
            though she is Caucasian. We are getting the word out.

            Office of Security Operations, NetHub”

TSA Officials Made No Effort to Report the Compromise
     We determined that the Assistant Administrator of TSA’s OSO did not
     approve the April 28, 2006, NetHub email message broadcast, and
     actually took steps to recall it within 14 minutes. However, he did not
     notify us of the compromise, potentially undermining the integrity of
     ongoing covert testing at 11 additional airports. We also determined that
     several other senior TSA officials, including TSA’s liaison to our covert
     testing team, knew about the email, but did not notify us of the
     compromise.


         Investigation Concerning TSA’s Compromise of Covert Testing

                                   Page 3
       TSA responded that it has an excellent track record of cooperation with
       our office and with the Government Accountability Office in relation to
       covert testing by those offices. Further, TSA said that we and the
       Government Accountability Office have tested TSA operations on a
       regular basis for the past 5 years without any evidence of TSA employees
       compromising test integrity.

       Our investigation confirmed that TSA officials sent the email advising its
       Federal Security Directors and others of covert government airport testing.
       The email revealed details about our testing methodology and provided
       tester descriptions that compromised testing procedures. The fact that the
       Assistant Administrator recalled the message is evidence that TSA
       officials considered it to be inappropriate and not an indication of
       unauthorized testing by nongovernment entities as initially interpreted.
       Further, there is no record of any attempt by TSA personnel to notify any
       appropriate law enforcement agency, including divisions within TSA, that
       unknown individuals were testing airport security.

       TSA’s disclosure of our covert testing procedures was inappropriate and
       interfered with a legitimate function of our office. In addition, at no time
       did any TSA official inform us that our testing was compromised.

Only Airport Police and TSA Federal Security Directors Should Be
Provided Advanced Notification of Covert Testing
       In addition to our investigation into the origins, creation, and
       dissemination of the April 28, 2006, email, we assessed the notification
       procedures used by TSA when its Office of Inspection conducts internal
       covert testing. We also reviewed our own notification procedures for
       possible shortfalls, and to avoid future compromises.

       According to TSA’s covert testing protocols, testers make appropriate
       notifications immediately before initiating a covert test. This notification
       is a necessary precaution intended to ensure the safety of the testers.
       During this notification, the covert testers may also solicit any areas of
       concern or special considerations that could arise with respect to testing.
       The protocols also note that the TSA managers or supervisors are not to be
       notified of the test.

       The purpose of covert testing is to discreetly evaluate the performance of
       an airport under all circumstances. Those who are intent on circumventing
       the screening process seek to exploit any weakness and will look to take
       advantage of periods when the system is under tremendous stress, whether
       during such special circumstances or during personnel, mechanical,
       weather-related, or procedural difficulties.


           Investigation Concerning TSA’s Compromise of Covert Testing

                                     Page 4
        Although we use different protocols than TSA’s Office of Inspection, we
        have determined that we will continue our practice of advance
        notification. Specifically, we believe it prudent to continue providing the
        Federal Security Directors with advance notification of our covert testing
        because we are not a part of TSA’s internal reporting structure and want to
        afford the directors this courtesy in an effort to avoid potential conflicts
        with airport operations. However, TSA should afford us the same
        courtesy it requests of its Federal Security Directors to refrain from
        notifying TSA managers or supervisors of covert testing. Providing
        advanced notification not only distorts testing results, but also negates
        those results as a point of comparison among airports. Such compromises
        prevent OIG and TSA’s Office of Inspection from accurately assessing
        TSA’s safety and security posture.


Management Comments and OIG Analysis
        We received written comments on the draft letter report from TSA and
        have included a copy of those comments in Appendix B. We reviewed
        TSA’s comments and made changes to our report where appropriate.

        Listed below are summaries of key points made by TSA in response to
        findings presented in our draft report, along with OIG's analysis.

           TSA Response: TSA strongly disagrees that the OIG's covert testing
           operations were compromised by either TSA’s transmission of the
           NetHub email or by TSA’s not reporting the occurrence to OIG. TSA
           states that there is no evidence that the release of the message on the
           NetHub system compromised covert testing and that OIG is incorrect
           to assert that the email revealed key details of OIG's April 2006 covert
           tests.

           OIG Analysis: The TSA email disclosed specific details of the
           physical description of the testers and the testing methodology being
           used in 2006 for then ongoing covert tests. Additionally, TSA did not
           notify OIG of the email that disclosed details of our testing procedures
           and methods, denying us the opportunity to change our methods or
           personnel to ensure valid testing at the remaining 11 airports. In fact,
           our investigation determined that the email was received by at least
           four TSA officials stationed at three of the airports scheduled to be
           tested after JAX. Therefore, it is our position that OIG's testing
           methods were compromised, and, at a minimum, TSA is complicit in
           the compromise.




            Investigation Concerning TSA’s Compromise of Covert Testing

                                      Page 5
TSA Response: TSA asserts that"[i]f the transmission of [the email's
contents] compromised the testing as has been alleged, OIG's April
2006 tests were compromised by the airport law enforcement
community prior to TSA receiving the message." Additionally, TSA
opines that "facts determined by OIG’s investigation of purported tip-
offs to its own covert testing exonerate TSA personnel from the
allegation."

OIG Analysis: Even though the email's contents originated from a
non-TSA source, TSA changed the subject line to "Notice of Possible
Security Test" and forwarded the notification to 388 TSA employees.
The message contained detailed information about ongoing covert
government testing and was received by at least 187 TSA employees
despite an email recall. Four of those employees were stationed at
airports scheduled to be tested. TSA personnel took no steps to
provide a follow-up explanation to the email's recipients, nor did TSA
notify OIG of the compromise. Therefore, at a minimum TSA
personnel were complicit in the compromise.

TSA Response: TSA also presented a list of six assertions
characterized as “salient facts” which OIG addresses in turn, below.

1.	 OIG conducted covert tests of airports – not TSA operations.

   OIG Analysis: Prior to testing, OIG staff thoroughly briefed TSA
   personnel on the nature and scope of the tests. TSA understood
   that its screener positions would be tested as well because
   screening is an integral part of airport security. Given TSA’s role
   in airport security, it is impossible to conduct airport security
   testing without including TSA. Even if one were to conclude that
   covert tests at airports do not involve TSA operations, we still
   question the conduct of TSA personnel who failed to report the
   compromised testing methods to the OIG.

2.	 Airport law enforcement spread the word about covert testing, not
    TSA.

   OIG Analysis: While our investigation traced the origin of the
   advance notice to an aviation security source, TSA participated in
   disseminating the advance notice by forwarding it to 388 TSA
   employees. The fact that the NetHub message was based on
   information originally and purposely disclosed first by another
   source does nothing to mitigate TSA’s complicity in the disclosure
   of OIG's covert testing methods. TSA ignored its responsibilities
   to act in the best interests of the government and the department.


Investigation Concerning TSA’s Compromise of Covert Testing

                          Page 6
   After receiving the email from airline security personnel entitled
   "Tests Warning," TSA should have taken affirmative action to
   quell the disclosure and to notify OIG that our covert testing
   methods had been disclosed, and therefore compromised. Instead,
   TSA "spread the word" by forwarding the text of that email to its
   field personnel in an email entitled "Notice of Possible Security
   Test." Although TSA attempted to recall the message 14 minutes
   later, our investigation determined that the recall was only partially
   effective because the email was read by at least 187 of the 388
   intended recipients. TSA did nothing to explain the recalled
   message to its recipients, and again, did not inform OIG that our
   covert testing methods had been disclosed, and therefore
   compromised.

3.	 The NetHub message in question came a day AFTER the law
    enforcement alert on covert testing.

   OIG Analysis: As an agency within DHS, and one with whom we
   cooperate to provide enhanced airport security through our covert
   testing program, TSA must be held to a high standard. Our
   investigation focused on TSA's conduct with respect to the email,
   and not on the inappropriate conduct of the originators of the alert.
   TSA should have notified OIG of the inappropriate law enforcement
   alert immediately upon learning of it.

   Specific TSA personnel, who were briefed by OIG and who had
   knowledge of the covert testing, received the law enforcement alert
   on the same day it was sent, but did nothing to report the
   compromise to OIG. TSA had a responsibility to take affirmative
   action to stop the spread of the leak and to inform OIG so that
   further testing would not be compromised. Instead, TSA broadcast
   the reconstituted information to an even broader audience and took
   no action in the interests of the department, or the government as a
   whole.

4.	 A NetHub duty officer passed on the law enforcement alert to TSA
    offices around the country – he did not intend it as a tip-off and
    had no knowledge about the true nature of the incidents being
    reported.

   OIG Analysis: The NetHub message contained clear reference to
   tests being conducted by agencies of the U.S. Government (i.e.,
   DOT/FAA) “testing airports throughout the country.” And that
   “two individuals were identified as FAA or DOT at the airport in
   JAX this morning.” The NetHub message was not a simple
   rebroadcast of the law enforcement alert that was merely

Investigation Concerning TSA’s Compromise of Covert Testing

                          Page 7
   forwarded. Rather, it was a reconstituted version crafted by TSA
   that still included specific reference to government testing.

   Even if the duty officer, as TSA suggests, had "a legitimate
   concern" that the described individuals were "posing as federal
   employees and presented a potential threat to aviation security,"
   there is no evidence that any TSA personnel, including the NetHub
   duty officer, took any steps to alert law enforcement or even TSA’s
   Intelligence section, of the suspected security threat. Rather, the
   NetHub message was sent to Federal Security Directors (and their
   staff), but not to law enforcement addressees or anyone in TSA
   Intelligence, the Federal Bureau of Investigation, or the Federal
   Air Marshal Service.

   It is not credible to assume that TSA would fail to respond
   appropriately to a suspected threat to airport security. Instead, we
   conclude that TSA knew the email was a warning about authorized
   government testing.

5.	 It was determined that the Assistant Administrator of TSA’s Office
    of Security Operations did not approve the April 28, 2006, NetHub
    email message broadcast and actually took steps to recall it within
    14 minutes.

   OIG Analysis: Our investigation supports this statement.
   However, that does not excuse the actions of TSA or lessen its
   responsibility to act in the interests of the department and the
   government as a whole. The Assistant Administrator of TSA’s
   OSO clearly recognized that the transmission of this message was
   inappropriate; his recall of the message without any explanation
   supports this conclusion. When the Assistant Administrator of
   TSA’s OSO did nothing to report the advance notification to the
   OIG, in spite of knowing about OIG's then ongoing tests, he failed
   to meet his responsibilities. Similarly, knowing that the recall was
   only partially successful and at least 187 TSA employees,
   including addressees at airports scheduled to be tested, had
   received the email, he did nothing further to correct the error or
   minimize the potential effects of the disclosure on future testing.

6.	 There was at no time any intent by officials at TSA to tip-off covert
    testing.

   OIG Analysis: The OIG's investigation, the results of which are
   discussed above, does not support TSA's claim. The NetHub
   message was a reconstituted message to TSA employees, and not
   just a retransmission of a law enforcement alert about potential

Investigation Concerning TSA’s Compromise of Covert Testing

                          Page 8
   unauthorized testing. The message clearly referred to testing by
   government agencies. Even if TSA personnel believed that the
   message was about unauthorized testing, they made no effort to
   notify the Federal Bureau of Investigation, the Federal Air Marshal
   Service, their own Intelligence section, or any other law
   enforcement entity about a potential threat to aviation security.
   After ordering a recall of the message, TSA personnel took no
   action to explain the inappropriate email to its recipients or to
   notify OIG of the compromise despite thorough knowledge of our
   then ongoing covert tests.




Investigation Concerning TSA’s Compromise of Covert Testing

                          Page 9
Appendix A
Purpose, Scope, and Methodology



                    In response to a request from U.S. Representative Bennie
                    Thompson, Chairman of the House Committee on Homeland
                    Security, we investigated the events surrounding a Transportation
                    Security Administration (TSA) email entitled “Notice of Possible
                    Security Test.” The purpose of our investigation was to determine
                    whether the email transmitted by the Assistant Administrator of
                    TSA’s Office of Security Operations compromised any covert
                    testing by another government entity.

                    We interviewed the former Acting Assistant General Manager of
                    NetHub and other TSA officials. In addition, we examined the
                    2006 archived email files of multiple TSA employees associated
                    with the release and review of the April 28, 2006, email.

                    We conducted our investigation from November 2007 to February
                    2008 under the authority of the Inspector General Act of 1978, as
                    amended, and according to generally accepted government
                    investigation standards.




             Investigation Concerning TSA’s Compromise of Covert Testing Methods

                                          Page 10
Appendix B
Management Comments to the Draft Report




             Investigation Concerning TSA’s Compromise of Covert Testing Methods 


                                           Page 11

Appendix B
Management Comments to the Draft Report




                Investigation Concerning TSA’s Compromise of Covert Testing 


                                          Page 12

Appendix B
Management Comments to the Draft Report




                Investigation Concerning TSA’s Compromise of Covert Testing 


                                          Page 13

Appendix B
Management Comments to the Draft Report




                Investigation Concerning TSA’s Compromise of Covert Testing 


                                          Page 14

Appendix C
April 28, 2006, NetHub Email




             Investigation Concerning TSA’s Compromise of Covert Testing Methods 


                                           Page 15

Appendix D
Major Contributors to this Report


                     Wayne Salzgaber, Special Agent in Charge, Office of
                     Investigations




              Investigation Concerning TSA’s Compromise of Covert Testing Methods

                                           Page 16
Appendix E
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Acting Deputy Secretary
                      Chief of Staff for Operations
                      Chief of Chief for Policy
                      Acting General Counsel
                      Executive Secretary
                      Assistant Secretary for Transportation Security Administration
                      Assistant Secretary for Policy
                      Assistant Secretary for Public Affairs
                      Assistant Secretary for Legislative Affairs
                      Director, GAO/OIG Liaison
                      TSA Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




              Investigation Concerning TSA’s Compromise of Covert Testing Methods 


                                            Page 17

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4199,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
